No. 20A169
IN THE

Supreme Court of the United States

ALABAMA ASSOCIATION OF REALTORS, et al.,
APPLICANTS,
V.
U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, et al.,
RESPONDENTS.
CERTIFICATE OF COMPLIANCE

In accordance with Sup. Ct. R. 37.5 and 33.1(h), I certify that the Motion for
Leave to File a brief as amici curiae contains 367 words, excluding those parts of the
document exempted by Sup. Ct. R. 33.1(d).

I also certify that the Brief for American Academy of Pediatrics; American
Medical

Association;

Children’s

Healthwatch;

GLMA:

Health

Professionals

Advancing LGBTQ Equality; Medical Society of the District of Columbia; National
Hispanic Medical Association; National Medical Association; North Carolina
Pediatric Society; Emily A. Benfer; Kim M. Blankenship; Katherine L. Chen;
Matthew Desmond; Gregg Gonsalves; Peter Hepburn; Danya E. Keene; Kathryn M.
Leifheit; Michael Z. Levy; Sabriya A. Linton; Wendy Parmet; Craig E. Pollack; Julia
Raifman; and David Vlahov as Amici Curiae in Opposition to the Emergency

Application to Vacate the Stay contains 5,781 words, excluding those parts of the
document exempted by Sup. Ct. R. 33.1(d).

/s/ J.L. Pottenger, Jr.
J.L. POTTENGER, JR.
Nathan Baker Clinical
Professor of Law
Counsel of Record
Jerome N. Frank Legal Services Organization
Yale Law School
127 Wall Street
New Haven, CT 06511
(203) 432-4800
j.pottenger@ylsclinics.org
June 28, 2021

